9
CERTIFICATE OF SERVICE

I hereby certify, pursuant to FED. R. CIV. P. 5, that a true and correct copy of the
foregoing instrument was served upon counsel for all parties via email no later than
the 10th day of January, 2021.

YVONNE D. BENNETT
Texas Bar No. 24052183
Assistant Attorney General
Office of the Attorney General
P.O. Box 12548
Austin, Texas 78711*2548
(512) 463*2120
(512) 320*0667 facsimile
yvonne .bennett@oag.texas. gov

ATTORNEY FOR RESPONDENTS

Samuel T. Russell

